                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00233-96


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

  VA Caribbean Health Care System 

       San Juan, Puerto Rico 





March 13, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR



                                             Glossary
                       AUD         alcohol use disorder
                       CBOC        community based outpatient clinic
                       DWHP        designated women’s health provider
                       EHR         electronic health record
                       EOC         environment of care
                       IT          information technology
                       MH          mental health
                       MI          motivational interviewing
                       MM          medication management
                       NM          not met
                       OIG         Office of Inspector General
                       PACT        Patient Aligned Care Teams
                       PCC         primary care clinic
                       PCP         primary care provider
                       PII         personally identifiable information
                       RN          registered nurse
                       VHA         Veterans Health Administration
                       VISN        Veterans Integrated Service Network
                       WH          women’s health




VA OIG Office of Healthcare Inspections
                                 CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                          CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of February 3, 2014, at the Arecibo,
PR, CBOC, which is under the oversight of the VA Caribbean Health Care System and
Veterans Integrated Service Network 8.

Review Results: We conducted four focused reviews and had no findings for the
Medication Management and Designated Women’s Health Provider Proficiency reviews.
However, we made recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC Registered Nurse Care Managers
receive motivational interviewing training within 12 months of appointment to Patient
Aligned Care Teams.

Environment of Care. Ensure that:

	 Reviews of the hazardous materials inventory are completed timely at the Arecibo
   CBOC.

	 Patients’ personally identifiable information is secured on laboratory specimens
   transported to the parent facility from the Arecibo CBOC.

	 Women veterans are provided access to a gender-specific restroom at the Arecibo
   CBOC.

Comments
 
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C-D,
pages 16–19, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                      i
                              CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                          1
                             CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
  The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                          2
                                   CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the Arecibo CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement.

Table 2. EOC

NM                    Areas Reviewed                                       Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current             The inventory of hazardous materials at the
 X     inventory of hazardous materials and waste        Arecibo CBOC was not reviewed for accuracy
       that it uses, stores, or generates.               twice yearly.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.


VA OIG Office of Healthcare Inspections                                                                3
                                   CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


NM              Areas Reviewed (continued)                                   Findings
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
       PII is protected on laboratory specimens
                                                          At the Arecibo CBOC, PII on laboratory
 X     during transport so that patient privacy is
                                                          specimens was not protected during transport.
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
                                                          Gowned women veterans at the Arecibo CBOC
       Adequate privacy is provided to women
 X                                                        could not access gender-specific restrooms
       veterans in the examination room.
                                                          without entering public areas.

       The IT network room/server closet is locked.

       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an Automated External
       Defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.


VA OIG Office of Healthcare Inspections                                                                   4
                                   CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


Recommendations:

1. We recommended that managers ensure that the hazardous materials inventory for the
Arecibo CBOC is reviewed at least twice yearly.

2. We recommended that managers ensure that PII is protected by securing laboratory
specimens during transport from the Arecibo CBOC to the parent facility.

3. We recommended that managers ensure that women veterans can access gender-specific
restrooms without entering public areas at the Arecibo CBOC.




VA OIG Office of Healthcare Inspections                                                               5
                                   CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and 39 staff training records and
validated findings with key managers and staff. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement.

Table 3. AUD

NM                   Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have                     Five (13 percent) of 39 RN Care Managers did
 X     received MI training within 12 months of           not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  6
                                   CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


Recommendation

4. We recommended that CBOC/PCC RN Care Managers receive MI training within 12 months
of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                               7
                                   CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                    Areas Reviewed                                       Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                               8
                                   CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                               9
                                                                       CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR
                                                                                                                                 Appendix A


                                                                   CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversightc.
The table below provides information relative to each of the CBOCs.

                                                                                            d
                                                                                    Uniques                                  Encountersd

                            Station                     CBOC
                                       Localitye                            g
    Location      State                                               MH         PCh       Otheri      All       MHg        PCh      Otheri       All
                               #                         Sizef
Ponce              PR        672B0       Urban        Very Large      3,375     9,356      11,398    11,726     20,070    33,589     107,850   161,509
Mayaguez           PR        672BZ       Urban        Very Large      3,126     8,903      9,654     10,087     15,380    40,508     64,203    120,091
Arecibo            PR       672GC        Urban         Mid-Size       1,034     4,194      3,592      4,411     6,025     16,440      9,353     31,818
Ceiba              PR       672GD        Urban         Mid-Size        147      3,003      2,251      3,341      401       9,204      5,258     14,863
Guayama            PR       672GE        Urban         Mid-Size        599      1,492      1,301      1,758     3,268      5,022      3,137     11,427
St Croix            VI      672GA        Rural          Small          68        864        658        915       200       2,474      1,610      4,284
St Thomas           VI      672GB        Rural          Small          32        795        524        838        74       2,447      1,088      3,609




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                  10
                             CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                                  Tele-Health
           CBOC             Specialty Care Servicesk            Ancillary Servicesl
                                                                                                   Servicesm
Ponce                            Ophthalmology                      Laboratory                 Tele Primary Care
                                   Optometry                      Rehabilitation
                                    Urology                         Radiology
                                    Podiatry                Diabetic Retinal Screening
                                   Cardiology                        Nutrition
                              Ear, Nose and Throat                   Audiology
                                General Surgery                 MOVE! Programn
                                  Dermatology                       Pharmacy
                                    Surgery                         Polytrauma
                                   Pulmonary                    Electromyography
                                                                  Diabetes Care
                                                                      VISTo
                                                               Prosthetics/Orthotics
Mayaguez                           Optometry                        Laboratory                 Tele Primary Care
                                     Dental                       Rehabilitation
                                 Ophthalmology                      Radiology
                                    Urology                          Audiology
                                    Podiatry                        Pharmacy
                                  Dermatology                     Diabetes Care
                                   Pulmonary                        Polytrauma
                                                                     Nutrition
                                                                 MOVE! Program
                                                               Prosthetics/Orthotics
                                                                       VIST
Arecibo                           Dermatology                        Nutrition                 Tele Primary Care
                                                                    Pharmacy
                                                            Diabetic Retinal Screening
                                                                  Hypertension
                                                                    Laboratory
Ceiba                                   ---                          Nutrition                 Tele Primary Care
                                                                    Pharmacy
Guayama                                 ---                           Nutrition                Tele Primary Care
St Croix                                ---                          Nutrition                 Tele Primary Care
                                                                   Rehabilitation
St Thomas                    Obstetrics/Gynecology                       ---                   Tele Primary Care
 
j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012 through June 30, 2013 timeframe at the specified

CBOC.

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

o
  The Visual Impairment Services Team (VIST) is a group of case managers that coordinate services for severely
disabled and visually impaired Veterans and active duty service members.

VA OIG Office of Healthcare Inspections                                                                          11
                                                                                              CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR
                                                                                                                                                        Appendix B


                                                                                PACT Compass Metrics 

                                                      FY 2013 Average 3rd Next Available in PC Clinics
                               45.0
                               40.0
    Average Number of Days




                               35.0
                               30.0
                               25.0
                               20.0
                               15.0
                               10.0
                                 5.0
                                 0.0
                                                                                     Mayaguez                       St Thomas                                     Guayama
                                        VHA Total   San Juan (672)   Ponce (672B0)               St Croix (672GA)               Arecibo (672GC)   Ceiba (672GD)
                                                                                      (672BZ)                        (672GB)                                      (672GE)
                             OCT FY13     14.6           33.1             7.7          6.3             5.6            31.0            7.6                           3.8
                             NOV FY13     15.2           36.3            15.7          12.4            5.6            31.1           12.2              7.2          9.0
                             DEC FY13     13.8           30.6            15.1          12.9            6.4             6.6           22.1              8.1          7.5
                             JAN FY13     14.0           28.4             9.5          8.8             7.1             5.0           12.7             10.7          7.2
                             FEB FY13     14.8           29.4            11.8           5.7            2.6            18.6            8.0             10.1          7.1
                             MAR FY13     13.3           30.8             6.5          5.3             5.6            20.1            8.2             11.1          9.0
                             APR FY13     14.4           19.5             8.8          6.2             7.5            17.2            9.0             32.0          5.6
                             MAY FY13     16.0           31.3            19.2          10.8            10.1           13.6           10.4             38.2          7.1
                             JUN FY13     14.2           28.6            14.0           9.6            7.6             9.1           20.3             20.0          5.7
                             JUL FY13     14.6           29.4            16.4          13.5            7.3             3.2            9.7             29.2          4.2
                             AUG FY13     15.7           31.6            15.0          20.3            11.7            7.7           11.2             23.9          8.2
                             SEP FY13     13.4           28.4            10.0          10.1            8.2             5.7            8.5             20.3          7.5
                                                                                                                                                                             
 Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
 Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
 appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
 national to the division level. Blank cells indicate the absence of reported data.
VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                                                       CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR



                                                                FY 2013 Established PC Prospective Wait Times 7 Days
                                             100%

         Percentage of Patients Scheduled

           Within 7 Days of Desired Date

                                              80%



                                              60%



                                              40%



                                              20%



                                               0%
                                                     OCT FY13   NOV FY13   DEC FY13   JAN FY13   FEB FY13   MAR FY13   APR FY13   MAY FY13   JUN FY13   JUL FY13   AUG FY13   SEP FY13
         VHA Total                                    83.5%      81.1%      82.4%      82.6%      83.2%      83.6%      84.0%      84.0%      84.1%      84.3%      84.5%      84.7%
         San Juan (672)                               86.6%      84.3%      86.3%      87.7%      88.4%      89.5%      89.6%      88.8%      88.4%      89.0%      90.5%      89.4%
         Ponce (672B0)                                83.0%      82.7%      83.6%      85.5%      86.2%      87.8%      87.7%      86.8%      88.2%      89.7%      90.4%      90.4%
         Mayaguez (672BZ)                             88.9%      85.3%      87.0%      86.5%      87.5%      88.8%      89.2%      89.8%      90.6%      90.6%      88.5%      89.9%
         St Croix (672GA)                             67.8%      62.1%      61.5%      62.1%      64.2%      71.7%      73.6%      72.0%      74.0%      76.0%      76.3%      84.8%
         St Thomas (672GB)                            92.9%      53.8%      52.6%      41.1%      36.2%      78.4%      73.1%      67.3%      60.0%      65.7%      57.9%      69.6%
         Arecibo (672GC)                              78.3%      64.5%      70.4%      72.7%      74.9%      77.8%      81.7%      81.9%      81.6%      81.9%      84.4%      86.0%
         Ceiba (672GD)                                95.9%      93.7%      91.5%      96.4%      94.5%      92.1%      94.9%      95.6%      93.5%      89.8%      94.3%      95.7%
         Guayama (672GE)                              86.8%      77.0%      83.9%      86.4%      84.8%      89.3%      89.0%      86.6%      89.4%      90.3%      93.3%      95.1%




 Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
 The total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month
 on the 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                                                  13
                                                                                  CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


                                                 FY 2013 Ratio of ER Encounters While on Panel to
                                                 PC Encounters  While on Panel (FEE ER Included)
                                          26%
                                          24%
            Percentage of ER Encounters   22%
                                          20%
                                          18%
                 to PC Encounters


                                          16%
                                          14%
                                          12%
                                          10%
                                           8%
                                           6%
                                           4%
                                           2%
                                           0%
                                                OCT     NOV     DEC     JAN      FEB    MAR     APR     MAY     JUN      JUL    AUG      SEP
                                                FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13    FY13
         VHA Total                              16.3%   16.3%   16.4%   16.3%   16.3%   16.3%   16.1%   16.1%   16.0%   15.9%   15.8%   15.7%
         San Juan (672)                         22.7%   22.9%   23.5%   23.8%   24.0%   24.4%   24.2%   24.4%   24.3%   24.2%   24.6%   24.9%
         Ponce (672B0)                          7.7%    7.6%    7.6%    7.5%    7.3%    7.3%    7.0%    6.8%    6.8%    6.8%    6.8%    6.6%
         Mayaguez (672BZ)                       4.9%    4.7%    4.8%    4.8%    4.9%    5.0%    5.0%    5.1%    5.1%    4.9%    4.9%    4.8%
         St Croix (672GA)                       4.8%    5.0%    5.1%    4.9%    4.3%    4.8%    4.3%    4.3%    4.3%    4.4%    4.1%    4.1%
         St Thomas (672GB)                      3.0%    3.4%    3.2%    3.4%    3.5%    3.2%    3.2%    3.1%    3.1%    2.8%    2.7%    2.6%
         Arecibo (672GC)                        9.1%    9.4%    9.2%    8.9%    8.9%    8.9%    8.5%    8.4%    8.3%    8.3%    8.3%    8.4%
         Ceiba (672GD)                          11.4%   11.6%   12.8%   13.2%   13.2%   13.5%   13.7%   14.2%   14.1%   13.9%   14.2%   14.4%
         Guayama (672GE)                        7.6%    7.5%    7.5%    6.6%    6.2%    6.5%    6.4%    6.3%    6.5%    6.4%    6.6%    6.3%




 Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the
 total VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
 assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
 primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                             14
                                                                          CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR



                                      FY 2013 2‐Day Contact Post Discharge Ratio
        100%
         90%
         80%
         70%
         60%
         50%
         40%
         30%
         20%
         10%
          0%
                                                               Mayaguez       St Croix   St Thomas      Arecibo                     Guayama
                  VHA Total   San Juan (672)   Ponce (672B0)                                                        Ceiba (672GD)
                                                                (672BZ)       (672GA)     (672GB)       (672GC)                     (672GE)
      OCT FY13      52.8%         70.9%            74.6%        51.8%          57.1%       50.0%         38.6%         73.1%         66.7%
      NOV FY13      52.9%         75.4%            77.6%        60.7%          75.0%      100.0%         53.5%         73.8%         50.0%
      DEC FY13      51.5%         69.6%            76.7%        76.9%          66.7%       66.7%         54.5%         71.4%         66.7%
      JAN FY13      57.2%         83.2%            76.8%        68.9%          66.7%       66.7%         62.2%         90.4%         50.0%
      FEB FY13      60.4%         88.7%            84.3%        75.0%          80.0%       66.7%         84.6%         100.0%        33.3%
      MAR FY13      64.4%         87.4%            66.7%        70.3%          75.0%       25.0%         94.4%         86.1%         72.7%
      APR FY13      65.5%         81.5%            81.7%        80.6%          71.4%       0.0%          81.8%         90.6%         69.2%
      MAY FY13      66.1%         79.2%            76.7%        66.7%          85.7%       66.7%         78.1%         93.2%         40.0%
      JUN FY13      70.1%         87.6%            81.8%        62.3%         100.0%      100.0%         74.5%         83.3%         76.9%
      JUL FY13      71.1%         88.2%            74.0%        68.6%          50.0%       66.7%         69.0%         90.0%         100.0%
      AUG FY13      72.7%         90.8%            83.9%        75.4%          50.0%       0.0%          65.8%         88.7%         90.9%
      SEP FY13      68.9%         80.9%            88.6%        74.3%          0.0%        0.0%          78.8%         80.9%         53.8%


Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
excluded from this metric.



VA OIG Office of Healthcare Inspections                                                                                                                15
                          CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR
                                                                                    Appendix C
                              VISN Director Comments



     Department of
     Veterans Affairs                                      Memorandum
     Date:        March 4, 2014

     From:        Director, VA Sunshine Healthcare Network (10N8)

     Subject: CBOC and Primary Care Clinic Reviews of the VA Caribbean
              Healthcare System, San Juan, PR

     To:          Director, Bay Pines Office of Healthcare Inspections (54SP)
                  Director, Management Review Service (VHA 10AR MRS OIG
                  CAP CBOC)


                  1. I have reviewed and concur with the VA Caribbean Healthcare
                  System Review of CBOC and Primary Care Clinics on February
                  3-7, 2014.

                  2. Appropriate action has been initiated and/or completed as
                  detailed in the attached report.




                 Joleen Clark, MBA, FACHE




VA OIG Office of Healthcare Inspections                                                     16
                          CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR
                                                                                    Appendix D
                            Facility Director Comments




VA OIG Office of Healthcare Inspections                                                     17
                          CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report.

OIG Recommendations:

Recommendation 1. We recommended that managers ensure that the hazardous
materials inventory for the Arecibo CBOC is reviewed at least twice yearly.

Concur

Target date for completion: September 30, 2014

Facility response: The VACHS will complete the Hazardous material inventory by
March 15, 2014, and again by September 15, 2014, and then every six months in
accordance with the VA Directive 0059, VA Chemicals Management and Pollution
Prevention, dated May 25, 2012.

Recommendation 2. We recommended that managers ensure that PII is protected by
securing laboratory specimens during transport from the Arecibo CBOC to the parent
facility.

Concur

Target date for completion: May 30, 2014

Facility response: Our interim solution has been to use durable plastic tie straps to
secure (lock) the containers used to transport the samples. We are in the process
purchasing metal boxes with combination locks, which will be in use by May 30, 2014.

Recommendation 3. We recommended that managers ensure that women veterans
can access gender-specific restrooms without entering public areas at the Arecibo
CBOC.

Concur

Target date for completion: August 15, 2014

Facility response: The current women’s exam room will be relocated to another exam
room next to the bathroom.

Recommendation 4. We recommended that CBOC/PCC RN Care Managers receive
MI training within 12 months of appointment to PACT.

Concur

Target date for completion: Completed January 31, 2014


VA OIG Office of Healthcare Inspections                                                     18
                          CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR


Facility response: All staff found deficient during the OIG visit have completed the MI
course.     Additionally, to maintain compliance with Health Promotion Disease
Prevention, the Program Manager is using an education-tracking grid to notify the Chief
Nurse/Ambulatory Care and individual staff members when course compliance is due.
This is an ongoing action.




VA OIG Office of Healthcare Inspections                                                     19
                          CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Charles Cook, MHA, Team Leader
Contributors            Karen McGoff-Yost, MSW, LCSW
Other                   Lin Clegg, PhD
Contributors            Darlene Conde-Nadeau, MSN, ARNP
                        Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     20
                          CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Sunshine Healthcare Network (10N8)
Director, VA Caribbean Health Care System (672/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
Resident Commissioner for the Commonwealth of Puerto Rico: Pedro Pierluisi

This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     21
                              CBOC and PCC Reviews at VA Caribbean Health Care System, San Juan, PR
                                                                                        Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
